No.

in the

Supreme Court of the United States

in re

Edward J. Mierzwa
Petitioner

PETITIONER'S APPLICATION TO UNITED STATES
SUPREME COURT JUSTICE SAMUEL ALITO FOR
EXTENSION TO FILE, PURSUANT TO RULE 30

By:
Edward J. Mierzwa, pro se
Mailing address: 11 Brook Street • Hackensack NJ 07601
Telephone: (201) 342-4840

To: United States Supreme Court Justice Samuel Alito

Petitioner certifies that this Application is filed
in good faith and timely. Dates for reference:

29 November 2019 - Entry of Final Order
by United States Court of Appeal for the Third
Circuit [copy attached].
29 January 2020 - Application for Extension
mailed.
27 February 2020 - Filing deadline for USSC
submission.

Pursuant to USSC Court Rule 30, Computation and
Extension of Time; Petitioner seeks Extension of
Time for reason of medical hardship.

Petitioner

suffers from depression, an illness duly recognized
by the Americans with Disabilities, Act. The
sensitivity of the subject matter exacerbates the
underlying medical condition; the Extension of Time
of sixty days is a sought after accommodation.

2

As per Proof of Service, dated 29 January 2020,
filed with the Court, the following parties were
notified: (1) Solicitor General of the United
States; (2) United States Attorney for the District
of New Jersey; (3) Clerk of the United States Court
of Appeal for the Third Circuit; (4) counsel for
Arkadiusz Dudek; (5) Diane Gaffney, non-participating
party; (6) James Gaffney, non-participating party.
Respectfully submitted,

By:

Executed on: 29 January 2020
Edward J. Mierzwa, Petitioner

3

